U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


      OFFICE OF SURFACE MINING
   RECLAMATION AND ENFORCEMENT
      FINANCIAL CONTROLS OVER
THE TECHNICAL ASSISTANCE AGREEMENT
   WITH THE REPUBLIC OF INDONESIA

              REPORT NO. 00-1-191
                JANUARY 2000
U.S. Demu-tment of the Interior                                 Office of Inwector General


                              EXECUTIVE SUMMARY

                Office of Surface Mining Reclamation and Enforcement
             Financial Controls Over the Technical Assistance Agreement
                            With the Republic of Indonesia
                                  Report No. 00-I-191
                                    January 2000

BACKGROUND

In February 1995, the Office of Surface Mining Reclamation and Enforcement (OSM)
entered into a $3.2 million reimbursable technical assistance agreement with the Bureau of
Environment and Technology of the Ministry of Mines and Energy, Republic of Indonesia,
for a project to provide technical assistance to the Republic for developing, establishing, and
implementing policy, regulations, and guidelines to control environmental effects caused
by mining activities in lndonesia. In addition, the agreement states that OSM is to “keep
accurate and systematic accounts and records in such form and detail as will clearly
identify all relevant time charges and cost, and the bases thereof.” Further, the agreement
requires OSM to submit to the Republic and the International Bank for Reconstruction and
Development quarterly reports that include itemized project expenditures for the previous
quarter and an itemized estimate of additional funds requested. As of June 30, 1999, OSM
had recorded $2.9 million of expenditures for the project.

OBJECTIVE

The objective of the audit was to determine whether OSM (1) took adequate action to
implement the recommendations contained in our December 1996 audit report “Office of
Surface Mining Reclamation and Enforcement Financial Controls Over the Technical
Assistance Agreement With the Republic of Indonesia” (No. 97-I-165) and (2) spent funds
in compliance with the financial management, accounting, and reporting requirements of the
agreement. The audit was initiated in response to a request from OSM’s Acting Deputy
Director.

RESULTS IN BRIEF

We concluded that OSM had fully implemented the three recommendations in our
December 1996 audit report. In addition, we concluded, based on our review of the
implementation of recommendations in the prior report, a review of the internal controls for
the financial requirements stipulated in the technical assistance agreement, and verification
tests of selected transactions, that OSM had spent funds in accordance with the terms of the
technical assistance agreement with the Republic of Indonesia.
RECOMMENDATIONS

The report did not contain any recommendations.

AUDITEE COMMENTS AND OIG EVALUATION

On January 4,2000, we held an exit conference with officials from OSM headquarters. The
officials agreed with the conclusions presented in a draft of this report.




                                          2
                                                                      E-IN-OSM-003-99-R
             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL                                 ..
                                 Washington, D.C. 20240




                                 AUDIT REPORT                           JAN 3 1 zoo0
Memorandum

To:       Director, Office of Surface Mining Reclamation and Enforcement

From:     Robert J. Williams -?p  &d
          Assistant Inspector General for $udits

Subject: Audit Report on Office of Surface Mining Reclamation and Enforcement
         Financial Controls Over the Technical Assistance Agreement With the Republic
         of Indonesia (No. 00-I-191)

                                INTRODUCTION
This report presents the results of our audit ofthe Office of Surface Mining Reclamation and
Enforcement’s (OSM) financial management, accounting, and reporting controls for funds
received under its technical assistance agreement with the Bureau of Environment and
Technology of the Ministry of Mines and Energy, Republic of Indonesia. The audit was
initiated in response to a request from OSM’s Acting Deputy Director. The objective of the
audit was to determine whether OSM (1) took adequate action to implement the
recommendations contained in our December 1996 audit report “Office of Surface Mining
Reclamation and Enforcement Financial Controls Over the Technical Assistance Agreement
With the Republic of Indonesia” (No. 97-I-l 65) and (2) spent funds in compliance with the
financial management, accounting, and reporting requirements of the agreement.

BACKGROUND

In February 1995, OSM entered into a $3.2 million reimbursable technical assistance
agreement with the Bureau of Environment and Technology of the Ministry of Mines and
Energy, Republic of Indonesia, for a project to provide technical assistance to the Republic
for developing, establishing, and implementing policy, regulations, and guidelines to control
environmental effects caused by mining activities in Indonesia. The project is funded by a
portion of a $260.5 million loan to the Republic from the International Bank for
Reconstruction and Development.

OSM’s responsibility for the project is as follows: (1) its resident Project Director in
Indonesia has overall field administrative responsibility; (2) its Finance Center staff in


                                             3
Denver, Colorado, accounts for project costs and funds received; and (3) the program staff
in the headquarters offrce in Washington, D.C., provide overall project coordination. . .
The agreement stipulates that the Republic provide periodic advance payments to OSM to
cover necessary and agreed-to project expenditures. Specifically, OSM is to be reimbursed
for all direct costs of the services provided and for administrative costs based on a fixed rate
of22.5 percent ofthe direct costs, excluding equipment items such as automobiles identified
in the agreement. In addition, the agreement states that OSM is to “keep accurate and
systematic accounts and records . . . in such form and detail as will clearly identify all
relevant time charges and cost, and the bases thereof.” Further, the agreement requires OSM
to submit to the Republic and the Bank quarterly reports that include itemized project
expenditures for the previous quarter and an itemized estimate of additional funds requested.
As of June 30, 1999, OSM had recorded $2.9 million of expenditures for the project.

SCOPE OF AUDIT

Our audit was performed at OSM’s headquarters office and its Finance Center. In a
February 17, 1999, memorandum from OSM’s Acting Deputy Director, we were requested
to review and audit funds expended by OSM under the agreement. As such, we statistically
selected 64 project expenditure transactions, valued at $215,034, for the period ofFebruary
1995 through June 1999 to determine whether OSM spent funds in accordance with the
agreement. We also reviewed overhead calculations, project billing statements gcncrated
from the accounting system, and quarterly reports. We did not verify the accuracy of OSM’s
overhead rate of 22.5 percent because it was established as a fixed rate in the agreement.
During our audit, we also reviewed the actions taken by OSM to address the
recommendations made in our December 1996 audit report.

Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. We also reviewed the Departmental Reports on Accountability for fiscal
years 1997 and 1998, which include information required by the Federal Managers’ Financial
Integrity Act, and determined that there were no reported weaknesses related to the objective
and scope of our audit.

PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any audit reports
concerning OSM’s agreement with the Republic. However, the Office of Inspector General
issued the audit report “Office of Surface Mining Reclamation and Enforcement Financial
Controls Over the Technical Assistance Agreement With the Republic of Indonesia”
(No. 97-I-165) in December 1996. The report stated that OSM needed to strengthen its
internal controls over preparation of the quarterly financial reports and the computation of
overhead costs to ensure that (1) costs reported in the quarterly reports submitted to the
Republic and the International Bank for Reconstruction and Development were in agreement
with the costs recorded in the accounting records and (2) administrative overhead costs were

                                               4
properly computed and accurately recorded. In addition, the report stated that OSM needed
to improve coordination between the Project Director and other program staff in the Finance
Center and the headquarters office to ensure timely identification and resolution of issues
related to the agreement’s financial management, accounting, and reporting requirements.
The .report contained three recommendations, all of which were considered resolved and
subsequently referred to the Assistant Secretary for Policy, Management and Budget,
Department of the Interior, for tracking of implementation. On March 4, 1997, the
Department reported that the recommendations were implemented.

In addition, the Inspector General has issued six reports during this period on OSM’s
financial statements, as required by the Chief Financial Officers Act of 1990. The most
recent report, “Office of Surface Mining Reclamation and Enforcement Financial Statements
for Fiscal Years 1998 and 1997” (No. 99-I-245), issued in February 1999, stated, “Our tests
of the internal controls over financial reporting and compliance identified no reportable
weaknesses or conditions.”

The five prior financial statement reports contained similar conclusions regarding OSM’s
internal control structure.

                             RESULTS OF AUDIT
We concluded that OSM had fully implemented the three recommendations in our
December 1996 audit report. In addition, we concluded, based on our review of the
implementation of recommendations in the prior report, a review of the internal controls for
the financial requirements stipmated in the technical assistance agreement, and verification
tests of selected transactions, that OSM had spent funds in accordance with the terms of the
technical assistance agreement with the Republic of Indonesia.

Prior Audit Report Recommendations
Recommendation 1. Ensure that administrative overhead amounts recorded in accounting
billing statements are computed accurately.

In our December 1996 report, we noted that OSM could not support its calculation of
administrative overhead costs because it did not have adequate controls to ensure that the
22.5 percent fixed overhead rate was properly applied to the appropriate direct cost base.
Specifically, OSM was unable to explain how the overhead amounts included in the quarterly
reports for the periods ending September 30 and December 31, 1995, were calculated,
including what equipment items and costs were excluded from the direct cost base before
the overhead rate was applied.

In our followup review, we found that OSM had issued a memorandum dated January 23,
1997, which provided new guidance on recording direct costs and computing the overhead
rate. Our review of OSM’s administrative amounts included in the quarterly reports for
fiscal years 1996,1997,1998, and 1999 (through June 30,1999) showed that the costs were

                                             5
computed accurately and supported by the official accounting records. Accordingly, we
consider the recommendation implemented.                                        ..

Recommendation 2. Ensure that direct and overhead costs included in the quarterly reports
are reconciled to information in the accounting billing statement and the official accounting
svstem and reviewed by either headquarters or Finance Center staff before the quarterly
reports are provided to the Republic of Indonesia and the International Bank for
Reconstruction and Development.

In our December 1996 report, we noted that the amount included in the billing statement,
which was generated from OSM’s automated accounting system, at September 30,1995, was
not in agreement with the amount reported by the Project Director in the quarterly report to
the Republic for the same period. We concluded that this condition occurred because the
Project Director, who was located in Indonesia, prepared the quarterly report, which was not
reviewed by either the headquarters office or Finance Center staff.

In our followup review, we found that OSM had issued a memorandum dated January 23,
1997, which required that quarterly reports be prepared by the Finance Center and be
reviewed by the headquarters office prior to submission to the Republic ofIndonesia. In that
regard, we found that the Finance Center prepared the quarterly reports and that the
headquarters office reviewed the reports. In addition, the Finance Center reconciled the
quarterly reports with the project billing statements that were generated from the accounting
system. Accordingly, we consider the recommendation implemented.

Recommendation 3. Ensure that all program staff comnlv with the terms and conditions of
the technical assistance agreement pertaining to the calculation of administrative overhead
costs and nrenaration of the auarterlv reports.

In our December 1996 report, we noted that OSM needed to improve coordination between
the Project Director and other program staff in the Finance Center and the headquarters office
to ensure timely identification and resolution of issues related to the agreement’s financial
management, accounting, and reporting requirements. We concluded that a contributing
factor to this situation was that OSM program officials did not fully understand the
agreement’s overhead calculation process.

In our followup review, we found that OSM had issued two memoranda, both dated
January 23, 1997, which provided guidance for recording project costs, calculating
administrative overhead, and preparing and reviewing quarterly reports. Based on our
review and tests of these procedures, we consider the recommendation implemented.

On January 4,2000, we held an exit conference with officials from OSM headquarters. The
officials agreed with the conclusions presented in a draft ofthis report. Since this report does
not contain any recommendations, a response is not required.




                                               6
Section 5(a) of the Inspector General Act (Public Law 95452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the Congress. In
addition, the Office of Inspector General provides audit reports to the Congress.




                                             7
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form,html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washingtont D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Offke
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
J
-t3l




       U.S. Department of the Interior
       Office of Inspector General
       1849 C Street, NW
       Mail Stop 5341- MIB
       Washington, D.C. 20240-0001

       Toll Free Numbers
             l-800-424-508 1
             TDD l-800-354-0996

       FTSKommercial Numbers
           (202) 208-5300
           TDD (202) 208-2420
